No.

IN THE
SUPREME COURT OF THE UNITED STATES
4

PERCY ALLEN STOCKS - PRO PER PETITIONER

VS.

TRISHA MEGGS PATE - RESPONDENT^

PROOF OF SERVICE

I, Percy Allen Stucks Jr., do swear or declare that on this date, March 03,
2021, as required by Supreme Court Rule 29 I have served the enclosed MOTION

14

FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITIONER FOR
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and address of those served are as follows:

1. Hon. Clerk Scott S. Harris
Supreme Court of the United States
Office of the clerk
Washington, DC 20543-0001
2. Assistant Attorney General Trisha Meggs Pate
PL-10, The Capitol
Tallahassee, Florida 32399-1050

15

